HHS/OIG, Audit -"Review of Medicaid Drug Rebate Collections - State of Louisiana,"(A-06-03-00011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Collections - State of Louisiana," (A-06-03-00011)
April 7, 2003
Complete
Text of Report is available in PDF format (2.5 MB). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Louisiana Department
of Health and Hospitals (DHH) had established adequate accountability over
the Medicaid drug rebate program.  We found that the DHH had established
adequate accountability except for (1) the reconciliation of the outstanding
balance of drug rebate accounts receivable reported on the Centers for Medicare
and Medicaid Services (CMS) 64.9R report to the supporting books and records,
and (2) the utilization of the hearing mechanism available under the Medicaid
program to resolve disputes with drug manufacturers as prescribed in the rebate
agreement between the CMS and the manufacturer(s).  As a result of not
reconciling the CMS 64.9R to the supporting books and records, DHH overstated
its Medicaid drug rebates accounts receivables as of June 30, 2002 by $33.8
million.  Also, the DHHs records showed $2.9 million in uncollected drug
rebates from 1991 through 1995.  The DHH agreed with our finding that
the CMS 64.9R was not reconciled to the supporting books and records and implemented
a requirement to perform this reconciliation.  The DHH disagreed that
the use of hearings were warranted for the $2.9 million, because its analysis
indicated that these balances were related to rate changes rather than disputes.